April 27, 2011

SUSAN BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Internal Controls over the Contract Close-out Process
        (Report Number CA-AR-11-004)

This report presents the results of our audit of internal controls over the contract close-
out process (Project Number 09YG045CA000). Our objective was to determine whether
the U.S. Postal Service was properly closing contracts. This self-initiated audit
addresses operational risk. See Appendix A for additional information about this audit.

Contract close-out is the administrative procedure associated with the end of the
business agreement with the supplier and the Postal Service and the archiving of
documents in the contract file. Contract close-out should occur either after the supplier
has successfully completed contract performance and has been compensated
accordingly or when the contract is terminated for default or convenience. Upon
completion of contract close-out procedures, the contracting officer (CO) must officially
signify that all required sign-offs have been completed and include all related
documentation in the contract file. The CO should update the Contract Authoring
Management System (CAMS) with information regarding all major changes to the
contract status, including that the contract has been completed and closed. The Postal
Service should release all remaining funds committed to the contract upon close-out.

Contract close-out requirements are often neglected because of their perceived lack of
importance in the contract lifecycle; however, the requirements play a key role in
ensuring the processing of final payments, timely decommitment of funds, and the
return of Postal Service property.

Conclusion

Supply Management personnel did not always follow contract close-out procedures or
records management requirements. Of the 649 contracts we selected for review1, we
were able to review only 539 contract files because Supply Management could not
locate 110 contract files (17 percent) at the time of our site visits. Of the 539 contract
files reviewed, 381 (71 percent) were missing the required close-out documents or the
contracts had expired and had not been properly closed out. Additionally, CAMS

1
    The contracts were selected from CAMS data as of October 23, 2009.
Internal Controls over the Contract Close-out Process                                           CA-AR-11-004



close-out data was not always reliable. Specifically, while reviewing the 539 contract
files, we identified 54 erroneous close-out reports2.

Contract Close-Out Requirements

COs did not always comply with the Postal Service’s contract close-out requirements3.
Of the 539 contract files reviewed, 381 were missing close-out documents or the
contracts had expired and had not been properly closed out. Also, of 374 contracts
coded as closed in CAMS, only 52 (14 percent) had modifications that officially closed
the contract and decommitted leftover funds. Category management center (CMC)
managers were not consistent in requiring their staffs to follow contract close-out
requirements and most staff stated they were not trained on contract close-out
requirements. Additionally, in some cases, contracting staff members were confused
about the various Postal Service payment systems and the procedures for locating
contract payments. For the 381 contracts missing close-out documents, $926,405,513
in funding was not decommitted. There is risk of the Postal Service making contract
overpayments when contract amounts are not timely decommitted. See Appendix B for
our detailed analysis of these issues and Appendix C for a discussion of the monetary
and other impacts reported.

In March 2011, Supply Management began offering a five-part training series titled:
CAMS and Contract eFile Document Compliance Training. The training was designed,
in part, to address previous OIG audit findings4 regarding deficiencies in tracking
contract actions. During the contract close-out session of this training, Supply
Management left modification of the contract to decommit funds to the discretion of the
CO. The accounting service center can also decommit funds at close-out. Regardless of
the party decommitting the funds, it is important that excess funds are promptly
decommitted and not left vulnerable to misappropriation.

Records Management Requirements

Supply Management personnel did not always follow the Postal Service’s records
management requirements for retention and disposal of contract files.5 Of the
649 contracts selected for review, 110 contract files could not be located. In some
cases, we attempted to trace the files to various CMCs that may have received the files
in transfer, but at the time of our review, neither the CMC currently responsible for the
files or the preceding CMC could locate the files. CMC managers were not providing
sufficient oversight to ensure employees were following records management
requirements. Of the 110 missing contract files, 75 had a remaining commitment of
$133,891,984. Of those 75 contracts, we located 36 payments made for a total of
$54,742,683. A contract’s file documentation is critical in documenting key contract
decisions, such as approvals, payments, and modifications. When the contract file is
2
  These close-out reports had erroneous contract amounts, dates, and CO data.
3
  Supplying Practices, Section 5-14, “Close-out Contract.”
4
  For example, U.S. Postal Service Purchasing Policies (Report Number CA-AR-10-005, dated September 20, 2010),
included a finding that the Postal Service could not readily identify its non-competitive contract universe.
5
  Handbook AS-353, USPS 400-Supplier and Tenant Records, “Retention and Disposal.”


                                                        2
Internal Controls over the Contract Close-out Process                        CA-AR-11-004



missing, signature copies of the contract, modifications, and other decision documents
are not available to support key contract decisions.

Reliability of CAMS Data

The CAMS data was not always reliable for validating close-out information. We
identified 54 CAMS close-out reports that contained erroneous contract amounts, dates,
and CO data. On March 18, 2011, we issued a draft report (Contract Management Data.
CA-AR-11-002) recommending that the Postal Service improve procedures for
validating contract data and create policies and processes to ensure data integrity.

We recommend the vice president, Supply Management:

1. Establish standardized contract close-out policies and procedures. This should
   include a system alert requiring contracting staff to complete Contract Authoring
   Management System close-out reports before they close-out a contract and
   ensuring that remaining funds are promptly decommitted when the contract is
   completed and closed.

2. Ensure Supply Management personnel are trained in contract close-out procedures.
   Specifically, personnel should be trained to accurately complete the Contracting
   Authoring Management System close-out reports and extract payment history data
   from the payment systems. The training should be part of new employee training
   and be updated every other year.

3. Establish a periodic control to ensure category management center personnel follow
   records management requirements for contract files including, but not limited to,
   retaining records for the required 6 years.

4. Establish a periodic control to ensure contracts are being closed timely and that
   close-out procedures are being followed to include that Contract Authoring
   Management System close-out reports contain accurate information.




                                                        3
Internal Controls over the Contract Close-out Process                           CA-AR-11-004



Management’s Comments

Management agreed with all recommendations. They stated they conducted CAMS
training in March and April 2011 and two of the training sessions focused on contract
close-out requirements. They stated they will train all new CAMS users and will update
the training and present it to employees as needed. Management also stated they
provided information on tools available to assist COs with the close-out process and are
investigating the possibility of customizing the CAMS application to require the
completion of a report before a contract status can be changed to “closed.” Additionally,
management agreed to implement a standardized process for contract file archiving and
storage by July 2011 and to update and issue a revised close-out scorecard that
includes trend information by June 2011.

Management disagreed with the reported impacts. They stated the U.S. Postal Service
Office of Inspector General (OIG) selected two sites for review that were undergoing
significant transitions and associated transfers of contract files. They stated this
contributed to their inability to have contract files available for audit and they were
subsequently able to locate the majority of the files. They did not agree that payments
associated with missing contracts should be categorized as unsupported questioned
costs, or that remaining commitments for missing contracts should be categorized as
assets at risk.

Management also disagreed with our reporting of assets at risk for contracts that were
either missing close-out documentation or had expired. They stated the report did not
identify the contracts and the OIG did not respond to their request for detailed data to
support the finding. They also stated there are legitimate business reasons for a
contract to remain open after the period of performance concluded.

Further, management disagreed with our reporting of data integrity associated with the
reliability of CAMS data. They confirmed there is an error in Enterprise Data Warehouse
(EDW) reporting; however, they stated there were close-out dates in CAMS for the
identified contracts. See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. We commend
management for initiating corrective actions during the course of our audit.

Management expressed concern over the selection of the audit sites and the impact
reported for missing files. We informed management of the sites we planned to visit at
the beginning of the audit. In addition, prior to our visits, we provided site managers with
lists of the contracts we planned to review. While on site, we worked with employees to
find files, including attempting to locate files they said were at other locations. We
visited the Chicago office prior to the announcement that it would be closing. The
Chicago staff did not indicate that files were in transition, simply that they could not be



                                                        4
Internal Controls over the Contract Close-out Process                        CA-AR-11-004



found. We coordinated our search for the missing files with Supply Management
headquarters staff, who also did not mention file transition as an issue. Without
available contract file documentation, payments are not properly supported and
commitments are at risk of improper disbursement. Management’s planned action to
implement a standardized process for contract file archiving and storage should help
reduce the risk of missing files.

Management also expressed concern regarding our evaluation of assets at risk, stating
there may be legitimate reasons for payments made after the period of performance has
expired. This may be true for some payments made shortly after the expiration of the
contract performance period; however, we evaluated these outstanding commitments
based both on lack of sufficient contract-close-out documentation and on the timeliness
of decommitment. Some of these contracts expired as long as 5 years ago.
Management’s planned actions to address the timely decommitment of contractual
funds should address this issue.

Management also expressed concern that the OIG did not respond to their request to
provide data to support the contracts that were either missing close-out documentation
or had expired. We answered every management request for data, including providing
the list of missing contract files, but management did not ask us to provide the list of
contracts that were either missing contract documentation or had expired. We provided
management with a listing of contracts that were either missing contract documentation
or expired upon receiving their comments. Our analysis of the contracts identified that
the CO did not document that all required steps were completed prior to closing the
contract or the contract was improperly left open.

Finally, we agree with management that the contracts without close-out dates on an
EDW report have close-out dates in CAMS. Unfortunately, management did not provide
the support detailed in their response until after the draft report was submitted for
comment, although we requested an explanation numerous times during the audit.
Therefore, we deleted the finding and associated other impact from the final report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed. Management indicated that the actions for
recommendation number 1 were completed; however, we need to be informed of
whether management intends to require the completion of the CAMS close-out report
prior to agreeing to close the recommendation. The actions taken by management are
sufficient to close recommendation number 2.




                                                        5
Internal Controls over the Contract Close-out Process                      CA-AR-11-004



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, director,
Supply Management or me at 703-248-2100.




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Joseph Corbett
    Deborah Giannoni-Jackson
    Susan A. Witt
    Corporate Audit and Response Management




                                                        6
Internal Controls over the Contract Close-out Process                          CA-AR-11-004



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The vice president, Supply Management, reports to the chief financial officer executive
vice president. Supply Management is organized into five portfolios under which there
are 18 CMCs. Each portfolio addresses a unique area of Postal Service purchasing
power. Within each portfolio, the CMCs break the purchasing portfolios further down
into specific market sectors.

Contract close-out is the administrative procedure associated with the end of the
business agreement with the supplier and the archiving of documents in the contract
file. Contract close-out should occur after a supplier has successfully completed
contract performance and has been accordingly compensated or when the contract is
terminated for default or convenience.

The primary purpose of contract close-out is to ensure the supplier has complied with all
contractual requirements and that the Postal Service’s needs have been met and
fulfilled. Upon completion of contract, a CO should validate that the contracted goods
and services have been received, all appropriate payments have been made, and the
remaining committed funds are decommitted. The CO must also validate that all
required sign-offs have been completed and include all related documentation in the
contract file. Contracts that are terminated for default or convenience are also subject to
contract close-out procedures. The CO is responsible for ensuring the contract’s status
is correct in CAMS.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service was properly closing
contracts. To accomplish our objective, we identified — using CAMS data as of
October 23, 2009 — contracts that fell into the following four categories:

    Contracts closed in fiscal years (FYs) 2008 and 2009.
    Open contracts more than 5 years old.
    Open contracts with expired period of performance date.
    Closed contracts with no close-out dates.

We organized the identified contracts by the CMC from which they originated. We
selected the Western Services CMC, Chicago, IL (selecting 191 contracts for review) to
perform survey work. After completion of the survey work, we selected the following four
additional CMCs to perform audit fieldwork:

    Delivery, Industrial Equipment, and Telecommunications, Greensboro, NC
    (169 contracts selected for review).

    Eastern Services, Memphis, TN (100 contracts selected for review).



                                                        7
Internal Controls over the Contract Close-out Process                           CA-AR-11-004




    Environmental and Maintenance, Repair and Operations, Dallas TX (100 contracts
    selected for review).

    Surface Transportation, Largo, MD (98 contracts selected for review).

At each CMC, we reviewed the statistically selected contract files to determine whether
the Supplying Principles and Practices (SP&Ps) contract close-out procedures had
been applied. For the closed contracts, we determined whether the contract file
contained a receiving report or e-mail from the client validating the receipt of product or
services and a record of payments, including the final payment. We also determined
whether excess funds on the closed contracts had been decommitted and whether the
contact file contained a CAMS close-out document. Additionally, we determined
whether open contracts had expired and should have been closed out.

We conducted this performance audit from September 2009 through April 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 8, 2011, and included their
comments where appropriate.

We relied on data obtained from Postal Service database systems. We did not directly
audit the systems but performed a limited data integrity review by validating a sample of
data to source documentation. We did note discrepancies in the data that are included
in this report.

PRIOR AUDIT COVERAGE

The OIG did not identify any prior audits or reviews related to the specific objective of
this audit.




                                                        8
Internal Controls over the Contract Close-out Process                        CA-AR-11-004



                              APPENDIX B: DETAILED ANALYSIS

Contract Close-out Requirements

Of the 539 contract files we reviewed, 381 were either missing contract close-out
documents or the contracts had expired and had not been closed-out properly. In
addition, of 374 contracts coded as “closed” in CAMS, only 52 had modifications in the
files that officially closed the contract and decommitted leftover funds. The Postal
Service’s Supplying Principles and Practices, Section 5-14, “Close-out Contract,” details
the following contract contact close-out requirements:

    A contract is considered performed and fully completed when:

    o The supplier has completed the required deliveries and the Postal Service has
      received, inspected, and accepted the products.

    o The supplier has performed all services and the Postal Service has accepted
      those services.

    o The contract performance has been officially assessed and evaluated.

    o The final payment has been made.

    The CO is responsible for ensuring the following actions are completed before
    contract close out:

    o The scope of work performed is verified.

    o Financial information is reviewed for completeness and accuracy.

    o All required items are delivered and properly accepted.

    o The purchasing office has signed off on contract completion.

    o The purchasing team has documented all lessons learned in the contract file.

    o    Inventory has been managed and disposed of per the contractual requirements
         and the contracting files have been properly closed and archived.

    The CO is responsible for ensuring contract files have been appropriately closed and
    archived. The contract file must contain sufficient documentation that would allow an
    outside party to review and understand the process and business decisions resulting
    in contract award, contract modification, and contract termination or expiration.
    Warning notices and records associated with contracts terminated for default or for
    convenience must also be in the contract file.




                                                        9
Internal Controls over the Contract Close-out Process                             CA-AR-11-004



COs did not always comply with the required contract close-out procedures because:

    CMC managers were inconsistent in requiring their contracting staff to follow Postal
    Service’s contract close-out requirements. No written or established contract close-
    out procedures existed at any of the five selected CMCs. Most of the employees at
    the CMCs followed procedures that they developed internally.

    Contracting staff was not always adequately trained on contract close-out
    requirements. During our five site visits, all the staff interviewed stated they did not
    have adequate training on the CAMS close-out procedures. They were confused
    about which screen to use and which processes to follow.

To assist CMC contracting staff, Supply Management personnel built a questionnaire
into the CAMS close-out process. The questionnaire automatically appears on a
contracting staff’s computer screen when the staff member attempts to close-out a
contract in CAMS. Supply Management personnel designed the questionnaire, which
requires “yes” or “no” answers, to ensure CMC contracting staff completed all SP&P
close-out requirements before closing a contract. However, CMC contracting staff can
— and normally do — bypass these questions without providing answers. A system
alert could be implemented to ensure CMC contracting staff members complete the
questionnaire before closing a contract.

Contracting staff members were confused by the multiple payment systems with
conflicting contract payment data. There are three different contract record-of-payment
systems:

    The CAMS module of the EDW (CAMS-EDW).
    The Accounting Data Mart (ADM) module of the EDW system (ADM-EDW).
    The Accounts Payable Excellence system.

At the five CMCs we visited, contracting staff, overall, were confused about the CAMS
close-out system and how to adequately locate contract payments, which hindered
them from properly closing the contracts.

There is risk in not decommitting excess funds when a contract has been closed-out
improperly. For the 381 contracts missing close-out documents, $926,405,513 in
funding was not decommitted. We are reporting the funds not decommitted as assets at
risk.




                                                    10
Internal Controls over the Contract Close-out Process                         CA-AR-11-004



Records Management Requirements

Supply Management personnel did not always follow the records management
requirements for the maintenance and disposal of contract files. Handbook AS-353,
USPS 400-Supplier and Tenant Records, “Retention and Disposal,” requires that
contract records be closed at the end of the fiscal year in which they become inactive,
and retained for 6 years thereafter. Of the 649 contracts we selected for review,
110 contract files were missing and could not be accounted for. For example, at the
Surface CMC, we were told 24 files had been transferred to Global Business. We
followed up with Global Business personnel, but were unable to locate the files. We
determined that the cause for the missing files was that Supply Management did not
ensure that its contracting staff complied with the records management requirements.

There is considerable risk when contract files are missing. Without the contact file,
signature copies of the contract, modifications, and other decision documents are not
available to support key contract decisions. Of the 110 missing contract files,
75 contracts had commitment dollars of $133,891,984. We obtained payment data from
the CAMS-EDW and the ADM-EDW systems. From the two systems, we located
36 contracts with payments totaling $54,742,683. The spend amount is categorized as
unsupported questioned costs because no documentation exists to validate the
payments. The remaining 39 contracts had committed dollars of $79,149,3018, and we
did not locate any associated payments. This amount will be categorized as assets at
risk.

Reliability of CAMS Data

Supply Management staff must use CAMs for all transactions involving contracted
supplies and services. Supply Management’s goal is to go paperless with all CAMS
data by FY 2012. However, CAMS is not always reliable for validating contract close-out
data and contract status. Contracting staff should be trained to input accurate contract
close-out data to ensure CAMS data is improved before the paperless conversion is
completely implemented.

During our audit, we found 54 erroneous close-out reports in CAMS. These reports had
erroneous contract amounts, dates, and CO data.




                                                    11
Internal Controls over the Contract Close-out Process                                                   CA-AR-11-004



                            APPENDIX C: MONETARY AND OTHER IMPACTS

                                               Monetary Impacts

                 Finding                          Impact Category                            Amount
          Records Management                 Unsupported questioned
                                                                                            $54,742,683
          Requirements                       costs6

                                                 Other Impacts

                     Finding                         Impact Category                     Amount
           Contract Close-out
                                                    Assets at risk7                       $926,405,513
           Requirements
           Records Management
                                                    Assets at risk8                          79,149,301
           Requirements

                                         Total                                         $1,005,554,814




6
  Cost that are unnecessary, unreasonable, or an alleged violation of law or regulation. These costs are also not
supported by adequate documentation. This is the amount of payments made to suppliers associated with missing
contract files.
7
  Assets or accountable items that are at risk of loss because of inadequate internal controls. This is the amount of
dollars still committed on closed or expired contracts.
8
  Assets or accountable items that are at risk of loss because of inadequate internal controls. This is the amount of
dollars still committed on contracts with missing files.


                                                          12
Internal Controls over the Contract Close-out Process       CA-AR-11-004



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                    13
Internal Controls over the Contract Close-out Process    CA-AR-11-004




                                                    14
Internal Controls over the Contract Close-out Process    CA-AR-11-004




                                                    15
Internal Controls over the Contract Close-out Process    CA-AR-11-004




                                                    16
